No.

 

 

IN THE

Supreme Court of the United States

THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HoME,

Petitioner,
v.

THE COMMONWEALTH OF PENNSYLVANIA AND
THE STATE OF NEW JERSEY, ET AL.,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,964 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 1, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
